ga

@OCKLE

2311 Douglas Street Le ga ] Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-893

SHIMON WARONKER, PETITIONER
Vv.
HEMPSTEAD UNION FREE SCHOOL DISTRICT, ET AL.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of March, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF FOR THE RESPONDENTS IN OPPOSITION in the above
entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

AUSTIN REIS GRAFF
Counsel of Record

JONATHAN L. SCHER
The Scher Law Firm, LLP
One Old Country Road
Suite 385
Carle Place, NY 11514
(516) 746-5040
agraff@scherlawfirm.com
jscher@scherlawfirm.com

Counsel for Respondents

Subscribed and swom to before me this 17th day of March, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY.State of ebraska & A ut, ) Ke a bb, L
a. incu ee san feats. Soa” Qukraer- th GE La
Notary Public Affiant 39573

 
SERVICE LIST

Erwin Chemerinsky

University of California, Berkeley School of Law
215 Boalt Hall

Berkeley, CA 94720

510-642-6483

echemerinsky@law.berkeley.edu

Counsel for Petitioner Shimon Waronker
